C@QCKLE

2311 Douglas Street Le ga ] Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-430

ATHENA DIAGNOSTICS, INC., OXFORD
UNIVERSITY INNOVATION LTD., and
MAX-PLANCK-GESELLSCHAFT ZUR

FORDERUNG DER WISSENSCHAFTEN E.V.,
Petitioners,

v.
MAYO COLLABORATIVE SERVICES, LLC, dba
MAYO MEDICAL LABORATORIES, and MAYO CLINIC,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF PROFESSORS JEFFREY A. LEFSTIN AND PETER S.
MENELL AS AMICI CURIAE IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JEFFREY A. LEFSTIN PETER S. MENELL
Professor of Law Koret Professor of Law
UNIVERSITY OF CALIFORNIA, Counsel of Record
HASTINGS COLLEGE OF LAW UNIVERSITY OF CALIFORNIA,
200 McAllister Street BERKELEY SCHOOL OF LAW
San Francisco, CA 94102 225 Bancroft Way
(415) 565-4658 Berkeley, CA 94720-7200
lefstinj@uchastings.edu (510) 642-5489

pmenell@law.berkeley.edu

Subscribed and sworn to before me this 29th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘ A
State of Nebraska . Le bur B. /

My Commission Expires Nov 24, 2020

 

Notary Public Affiant

 

38921
 

Attorneys for Petitioners

Seth P. Waxman Wilmer Cutler Pickering Hale and Dorr LLP
Counsel of Record 1875 Pennsylvania Ave., NW
Washington, DC 20006

Seth.Waxman@wilmerhale.com

Party name: Athena Diagnostics, Inc., et al.

202-663-6800

 

 

Attorneys for Respondents

Jonathan E. Singer Fish & Richardson, P.C., P.A.
Counsel of Record 12390 El Camino Real
San Diego, CA 92130

singer@fr.com

Party name: Mayo Collaborative Services, LLC, et al.

858-678-5070

 

 
